No. ______
In the

Supreme Court of the United States
__________________
MARGARET TEMPONERAS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
ALEXANDRA C. SISKOPOULOS
Counsel of Record
SISKOPOULOS LAW FIRM, LLP
33 West 19th Street, 4th Floor
New York, New York 10011
(646) 942-1798
acs@siskolegal.com
Counsel for Petitioner

March 12, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
The Controlled Substances Act, 21 U.S.C. § 841, and
its corresponding regulation at 21 C.F.R. § 1306.04 are
hopelessly vague laws that criminalize perfectly
reasonable behavior by medical doctors. The federal
circuits have wild, differing interpretations of how to
apply these vague laws and a circuit split is painfully
obvious here. Unlike a standard medical practice,
prescribing pain medication is an integral part of a
pain management practice making the term “legitimate
medical purpose” inherently vague. Prosecutors have
arbitrarily applied these laws to secure criminal
convictions even though doctors were prescribing
lawful medications pursuant to the standards set forth
by medical boards and pharmaceutical companies.
This Court’s intervention is desperately needed here.
The question presented is:
1. Whether 21 U.S.C. § 841 and 21 C.F.R.
§ 1306.04 are unconstitutionally vague whereas
the term “legitimate medical purpose” does not
provide fair notice of a standard upon which
pain management medical practices can be held
criminally liable.

ii
LIST OF DIRECTLY RELATED PROCEEDINGS
1. United States of America v. Margaret
Temponeras, District Court Case No. 1:15-cr00065- TSB-1, United States District Court for
the Southern District of Ohio (Cincinnati) (final
judgment of conviction entered on February 3,
2020).
2. United States of America v. Margaret
Temponeras, Sixth Circuit Case No. 20-3192,
United States Court of Appeals for the Sixth
Circuit (unpublished decision affirming
judgment of conviction entered on October 16,
2020).

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
LIST OF DIRECTLY RELATED
PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
1. Factual and Procedural History . . . . . . . . . . . 3
2. How the federal question sought to be
reviewed was raised . . . . . . . . . . . . . . . . . . . . 9
REASONS FOR GRANTING THE WRIT. . . . . . . . 10
I. This Court has never provided clarity on the
vague term “legitimate medical practice”
encompassed in 21 U.S.C. § 841 and 21 C.F.R.
§ 1306.04 resulting in haphazard application of
these laws and a circuit split. Ultimately, this
vague term has allowed the government to
criminalize a practice of medicine that was
accepted and practiced by doctors in the medical
community. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

iv
II. The inherent vagueness of the law is
exacerbated by continuing changes in medical
opinion and conflicting laws. What was deemed
appropriate while Petitioner was practicing
medicine, has now been castigated as
illegitimate by the government by virtue of these
inherently vague provisions . . . . . . . . . . . . . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(October 16, 2020) . . . . . . . . . . . . . App. 1
Appendix B Judgment in the United States
District Court for the Southern
District of Ohio
(February 3, 2020) . . . . . . . . . . . . App. 5
Appendix C Statutory and Regulatory Provisions
Involved . . . . . . . . . . . . . . . . . . . . App. 15
21 U.S.C. § 841 . . . . . . . . . . . . . . App. 15
21 C.F.R. § 1306.04 . . . . . . . . . . . App. 34
2005 OAC Ann. 4731-21-02 . . . . App. 36
2017 OAC Ann. 4731-21-02 . . . . App. 42
Appendix D Complaint, Ohio v. Purdue Pharma,
L.P., et al. Excerpts. . . . . . . . . . . App. 49

v
TABLE OF AUTHORITIES
CASES
City of Chicago v. Morales,
527 U.S. 41 (1999). . . . . . . . . . . . . . . . . . . . . . . . 13
Connally v. Gen. Constr. Co.,
269 U.S. 385 (1926). . . . . . . . . . . . . . . . . . . . . . . 13
Grayned v. City of Rockford,
408 U.S. 104 (1972). . . . . . . . . . . . . . . . . . . . . . . 13
Johnson v. United States,
576 U.S. 591 (2015). . . . . . . . . . . . . . . . . . . . . . . 13
Kolender v. Lawson,
461 U.S. 352 (1983). . . . . . . . . . . . . . . . . . . . . . . 13
Lanzetta v. New Jersey,
306 U.S. 451 (1939). . . . . . . . . . . . . . . . . . . . . . . 14
Sessions v. Dimaya,
138 S. Ct. 1204 (2018). . . . . . . . . . . . . . . . . . 14, 17
Smith v. Goguen,
415 U.S. 566 (1974). . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Birbragher,
603 F.3d 478 (11th Cir. 2010). . . . . . . . . . . . . . . 12
United States v. Green,
222 F. Supp. 3d (W.D.N.Y. 2016) . . . . . . . . . 10, 24
United States v. Houdersheldt,
No. 3:19-00239, 2020 U.S. Dist. LEXIS 241736
(S.D. W. Va. Dec. 23, 2020). . . . . . . . . . . . . . . . . 15

vi
United States v. Moore,
423 U.S. 122 (1975). . . . . . . . . . . . . . . . . 12, 14, 19
United States v. Reese,
92 U.S. 214 (1875). . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Volkman,
797 F.3d 377 (6th Cir. 2015). . . . . . . . . . . . . . . . 14
CONSTITUTION AND STATUTES
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . 2
18 U.S.C. § 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
21 U.S.C. § 841 . . . . . . . . . . . . . . . . . . . . . . . . . passim
21 U.S.C. § 841(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
21 U.S.C. § 841(a)(1) . . . . . . . . . . . . . . . . . . . . 3, 5, 15
21 U.S.C. § 841(b)(1)(C) . . . . . . . . . . . . . . . . . . . . . . . 3
21 U.S.C. § 841(b)(1)(E) . . . . . . . . . . . . . . . . . . . . . . . 3
21 U.S.C. § 841(b)(2) . . . . . . . . . . . . . . . . . . . . . . . . . 3
21 U.S.C. § 846 . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4, 5
21 U.S.C. § 856(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OAC Ann. 4731-21-02 (2005) . . . . . . . . . . . . . . . . . . 23
OAC Ann. 4731-21-02 (2017) . . . . . . . . . . . . . . . . . . 23
REGULATIONS
21 C.F.R. § 1306.04 . . . . . . . . . . . . . . . . . . . . . passim

vii
RULES
Sup. Ct. R. 16 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OTHER AUTHORITIES
Cato Institute, Overdosing on Regulation - How the
Government Caused the Opioid Epidemic,
https://www.cato.org/policy-analysis/overdosingregulation-how-government-caused-opioidepidemic . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
National Law Review, Standards for Use of Opiates
in Treatment of Pain Changes in Ohio,
https://www.natlawreview.com/article/standar
ds-use-opiates-treatment-pain-changes-ohio. . . 24
Ohio Academy of Family Physicians Letter to the
Medical and Pharmacy Boards (October 2018),
https://www.ohioafp.org/wfmu-article/oafpa d d r e s s e s - p r o bl e m s - w i t h- au g u s t - o a r r s compliance-reports/. . . . . . . . . . . . . . . . . . . . . . . . 8
Ohio Marijuana Card, Understanding Pain that is
Chronic, Severe or Intractable,
https://www.ohiomarijuanacard.com/post/unde
rstanding-pain-that-is-chronic-severe-orintractable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Practical Pain Management, Benzodiazepines and
Opioids: Only Trained Pain Practitioners Should
Prescribe,
https://www.practicalpainmanagement.com/tre
atments/pharmacological/benzodiazepinesopioids-only-trained-pain-practitioners-shouldprescribe . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

viii
Practical Pain Management, State Pain Laws: A
Case for Intractable Pain Centers Part III,
https://www.practicalpainmanagement.com/res
ources/ethics/state-pain-laws-case-intractablepain-centers-part-iii . . . . . . . . . . . . . . . . . . . . . . 21
Science Direct, Clinical Solutions to Chronic Pain
and the Opiate Epidemic,
https://www.sciencedirect.com/science/article/p
ii/S0091743518303098?via%3Dihub . . . . . . 19, 20
State Medical Board of Ohio Release (November
2017), https://med.ohio.gov/Publications/RecentNews/state-of-ohio-board-of-pharmacymistakenly-sends-oarrs-email . . . . . . . . . . . . . . . 8

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Margaret Temponeras respectfully
petitions for a writ of certiorari to review the decision
and judgment of the United States Court of Appeals for
the Sixth Circuit in this case, or in the alternative,
Petitioner respectfully requests that this Honorable
Court summarily reverse the decision and judgment of
the United States Court of Appeals for the Sixth
Circuit pursuant to Supreme Court Rule 16.
OPINIONS BELOW
The United States Court of Appeals for the Sixth
Circuit issued its unpublished opinion on October 16,
2020 and is reproduced at App.1-4. The opinion of the
United States Court of Appeals for the Sixth Circuit is
available at United States v. Temponeras, 828 F. App’x
320 (6th Cir. 2020). On February 3, 2020, the District
Court entered a criminal judgment of conviction.
App.5-14.
JURISDICTION
The Sixth Circuit issued its opinion on October 16,
2020. On March 19, 2020, this Court extended the
deadline to file any petition for a writ of certiorari due
on or after that date to 150 days. This Court has
jurisdiction under 28 U.S.C. §1254(1).

2
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The Fifth Amendment of the United States
Constitution provides in relevant part:
“No person shall…be deprived of life, liberty, or
property, without due process of law.” U.S. Const.
amend. V.
21 U.S.C. § 841 provides in relevant part:
“Except as authorized by this title, it shall be
unlawful for any person knowingly or intentionally - (1)
to manufacture, distribute, or dispense, or possess with
intent to manufacture, distribute, or dispense, a
controlled substance.” 21 U.S.C. § 841. The full text of
21 U.S.C. § 841 is reproduced at App.15-33.
21 C.F.R. § 1306.04 provides in relevant part:
A prescription for a controlled substance to be
effective must be issued for a legitimate medical
purpose by an individual practitioner acting in
the usual course of his professional practice.
The responsibility for the proper prescribing and
dispensing of controlled substances is upon the
prescribing practitioner, but a corresponding
responsibility rests with the pharmacist who
fills the prescription. An order purporting to be
a prescription issued not in the usual course of
professional treatment or in legitimate and
authorized research is not a prescription within
the meaning and intent of section 309 of the Act
(21 U.S.C. 829) and the person knowingly filling
such a purported prescription, as well as the

3
person issuing it, shall be subject to the
penalties provided for violations of the
provisions of law relating to controlled
substances.
21 C.F.R. § 1306.04. The full text of 21 C.F.R.
§ 1306.04 is reproduced at App.34-35.
STATEMENT OF THE CASE
1. Factual and Procedural History
Margaret Temponeras was a medical doctor who
was indicted by the federal government (hereinafter
“government”) in June 2015. Indictment, RE 1, Page
ID # 1. Ms. Temponeras was charged with the
following criminal counts: Count 1 charged a
conspiracy between defendants to distribute and
dispense “diazepam, carisoprodal, hydrocodone,
oxycodone, and alprazolam, not for a legitimate medical
purpose and outside the scope of medical practice, in
violation of 21 U.S.C. §§ 846, 841(a)(1), (b)(1)(C),
(b)(1)(E), and (b)(2)”; Count 2 alleged a death resulted
from the distribution of Oxycodone and other controlled
substances not for a “legitimate medical purpose and
outside the scope of medical practice…in violation of 21
U.S.C. §§ 841(a), (b)(1)(C), and 18 U.S.C. § 2”; Count 3
and Count 4 alleged defendant maintained a premises
for the purposes of distributing controlled substances
“in violation of 21 U.S.C. § 856(a)(1) and 18 U.S.C. § 2.”
Presentence Report (“PSR”), p. 4, ¶¶ 2-5.
Additionally, Ms. Temponeras’ eighty plus year old
father who was also a doctor, John Temponeras, and
pharmacist, Raymond Fankell, were also charged in
this alleged criminal conspiracy. Indictment, RE 1,

4
Page ID # 1-2. John Temponeras and the government
entered into a plea agreement on or about March 15,
2017. PSR, p. 5, ¶ 11. Thereafter, Raymond Fankell
and the government entered into a plea agreement on
or about March 28, 2017. PSR, p. 5, ¶ 12. Margaret
Temponeras forcefully defended herself against these
criminal charges, but ultimately decided to resolve this
criminal matter via a plea agreement filed on April 3,
2017. Plea Agreement, RE 89, Page ID # 658-665.
The plea agreement states that the “Defendant
agrees to plead guilty to Count 1 of the Indictment in
this case, which charges her with Conspiracy to
Distribute a Controlled Substance, in violation of 21
U.S.C. § 841 and 846.” Plea Agreement, RE 89, Page
ID # 658. The plea agreement statement of facts sets
forth that Dr. Temponeras owned and was the
physician at a chronic pain management clinic and that
many patients received similar combinations of
medications. Plea Agreement, RE 89, Page ID # 663.
The plea agreement further states that “Dr.
MARGARET TEMPONERAS increased a prescription
of 2mg Xanax to four pills per day…These controlled
substances, to-wit: the 2mg Xanax pills.
Dr.
MARGARET TEMPONERAS never tapered them down
from November 9, 2009 through May 9, 2011…Patient
C.L. states that he believes that the number of
oxycontin and oxycodone were decreased after he
complained.” Plea Agreement, RE 89, Page ID # 66364. The plea agreement further sets forth that Dr.
Temponeras “was aware of a high probability that such
distributions were occurring…under her directions and
deliberately closed her eyes to what was obvious, over
prescription of the Xanax medicine, in violation of 21

5
U.S.C. § 846 and 841(a)(1).” Plea Agreement, RE 89,
Page ID # 664.
After the plea agreement was entered into, a
Presentence Report (“PSR”) was prepared. The PSR
reflects that Ms. Temponeras has always maintained
that she was following what she believed to be
appropriate medical guidelines. Ms. Temponeras
maintained that “she spent sufficient time with her
patients” and disputed allegations that she did not
discuss alternative treatments with her patients and
ignored the results of urine tests administered to her
patients. PSR, p. 7, ¶ 22; p. 8, ¶ 24. The PSR also
notes that Ms. Temponeras “participated in certain
courses and obtained certifications in pain
management.” PSR, p. 5, ¶ 14. The Report notes
“[l]ike many other doctors, she was being told by
pharmaceutical companies that Oxycontin and other
similar medications were not addictive. She was
encouraged by pharmaceutical representatives to
prescribe as much medication as it took to address a
patient’s pain.” PSR, pp. 5-6, ¶ 14. The PSR also
makes mention of the medical term of “titration”
commenting that “doctors are supposed to follow
titration which means the patients have optimal pain
relief with minimal side effects.” PSR, p. 7, ¶ 21.
The PSR also notes Ms. Temponeras had
established safeguards to ensure that medications were
not misused by patients and “had policies such as
running a patient’s name in OARRS and KASPER
which are systems in Ohio and Kentucky that tracked
controlled substance prescriptions to see if they had
been flagged as abusing controlled substances, and

6
doing random pill counts at the clinic.” PSR, p. 9, ¶ 27.
Ms. Temponeras also “employed security staff … who
would run record checks on patients to determine if
they had been arrested or convicted for drug offenses.”
PSR, p. 9, ¶ 29. Ms. Temponeras’ pain management
clinic “was treating some of the sickest patients in the
area. Those patients were typically referred to her by
other physicians or they were her former patients.”
Sentencing Hearing Transcript, RE 107, Page ID #798.
The Sentencing Guidelines required the PSR to
determine what number of pills fell outside the
acceptable range. The PSR contains an assumption as
to what prescriptions fell outside of a legitimate
medical purpose. PSR, p. 11, ¶ 40. The PSR notes that
only “6-8%” of prescriptions were for non-controlled
substances. PSR, p. 10, ¶ 37. The PSR contains no
information as to whether this was atypical for a pain
management medical practice. The PSR then utilized
the records of 26 patients to make assumptions at to
what prescriptions were deemed inappropriate and
came to a total by explicitly stating that “[i]f it is
assumed that the amount of Oxycodone and Oxycontin
prescriptions given to these patients … were improper
and outside appropriate medical practice, the total
would be ….” PSR, p. 11, ¶ 40. This assumption never
considered that “doctors are supposed to follow
titration which means the patients have optimal pain
relief with minimal side effects.” PSR, p. 7, ¶ 21.
Despite acknowledging that the dosage of the
medication must provide optimal pain relief with
minimal side effects, the PSR did not determine which
amounts were in excess, but rather assumed every pill
dispensed was inappropriate.

7
Thereafter, a sentencing hearing was held to
determine Ms. Temponeras’ sentence. The plea
agreement had established an agreed upon sentencing
range of thirty-six months to eight-four months. Plea
Agreement, RE 89, Page ID # 659. At the Sentencing
Hearing, the government acknowledged the Ohio
Medical Board had failed Ms. Temponeras. Sentencing
Hearing Transcript, RE 107, Page ID # 780-781.
Despite this acknowledgement, the government argued
that Ms. Temponeras was essentially running a pill
mill with no legitimate medical purpose.
The
government argued that red flags made her aware that
her prescription practices were excessive and brought
in last-minute exhibits at the sentencing hearing to
establish this argument. The government argued these
exhibits clearly showed that Ms. Temponeras was
warned and on notice. The exhibits provided by the
government, however, clearly note that even though a
letter from a pharmacy may alert a doctor to an issue
with a prescription, the letter does not usurp the
doctor’s professional medical judgment explicitly
stating “[w]hile this information is not intended to
replace your clinical judgment, we hope you find it
helpful in planning the best course of therapy for your
patients.” Sixth Cir. Apx 24. The government argued
that OARRS reports indicated that Ms. Temponeras’
prescriptions were excessive. Again, these reports are
considered an aid to doctors to ensure that patients are
not obtaining prescriptions from multiple sources.
These OARRS reports found in Exhibit 4 clearly
forewarn that this may not be accurate information.
Sixth Cir. Apx 36-37. Indeed, public information reveals
that OARRS reports have been plagued with

8
inaccuracies, inconsistencies and material falsehoods.1, 2
These OARRS reports are not intended to usurp a
doctor’s medical opinion.
At the conclusion of the sentencing hearing,
Margaret Temponeras was sentenced to 84 months in
a federal prison – the maximum sentence under the
terms of the plea agreement. Dkt 11/12/2019 Minute
Entry, Sixth Cir. Apx 15-16; Plea Agreement, RE 89,
Page ID # 659. The criminal judgment was entered on
February 3, 2020. App.5-14. A timely appeal was filed
1

In November 2017, the State Medical Board of Ohio issued the
following release:
Please be advised that the State of Ohio Board of
Pharmacy sent out emails this morning to approximately
7,000 prescribers indicating failure to comply with laws
requiring the use of the Ohio Automated Rx Reporting
System (OARRS).
The emails were erroneously
distributed without the knowledge of the State Medical
Board of Ohio, Ohio Board of Nursing or the Ohio State
Dental Board and may contain inaccurate information. If
you received this morning’s email, please disregard it. You
do not need to take any further action at this time. The
Pharmacy Board apologizes for this mistake and any
concerns it may have caused.
See, https://med.ohio.gov/Publications/Recent-News/state-of-ohioboard-of-pharmacy-mistakenly-sends-oarrs-email

2

In October 2018, the Ohio Academy of Family Physicians wrote
a letter to the Medical and Pharmacy Boards regarding the
inaccuracies in the OARRS Reports such as “missing codes,” “tying
a physician to the wrong medical license number,” and even an
instance of “a physician received a non-compliance report for
August when the physician was not even practicing medicine.” See,
https://www.ohioafp.org/wfmu-article/oafp-addresses-problemswith-august-oarrs-compliance-reports/

9
on February 14, 2020. Notice of Appeal, RE 111, Page
ID # 853-854.
Thereafter, Petitioner pursued an appeal in the
United States Court of Appeals for the Sixth Circuit.
On appeal, Ms. Temponeras argued that the in the
context of a pain management medical practice, 21
U.S.C. § 841 and 21 C.F.R. §1306.04 are
unconstitutionally vague.
The Sixth Circuit affirmed the judgment of the
District Court on October 16, 2020. App.1-4.
2. How the federal question sought to be
reviewed was raised.
On direct appeal to the United States Court of
Appeals for the Sixth Circuit, the Petitioner argued
that in the context of a pain management medical
practice, 21 U.S.C. § 841 and 21 C.F.R. § 1306.04 are
unconstitutionally vague because 21 U.S.C. § 841 and
21 C.F.R. § 1306.04 do not provide fair notice of a
standard upon which pain management medical
practices can be held criminally liable. Unlike a
standard medical practice, prescribing pain medication
is an integral part of a pain management practice
making the term “legitimate medical purpose”
inherently vague.

10
REASONS FOR GRANTING THE WRIT
The Sixth Circuit’s decision is the ideal vehicle to
address whether the Controlled Substances Act, 21
U.S.C. § 841, and 21 C.F.R. § 1306.04 are
unconstitutionally vague as applied to pain
management medical practices. These laws do not
provide fair notice of a standard upon which doctors
who have pain management medical practices can be
held criminally liable. The inherent nature of a pain
management medical practice is to treat pain for which
all other medical remedies have failed. As such, the
long-term treatment of patients through controlled
substances is an inherent part of the medical practice.
“Congress enacted the Comprehensive Drug Abuse
Prevention and Control Act of 1970 (‘the Act’)
in response to President Nixon’s declared ‘war on
drugs.’” United States v. Green, 222 F. Supp. 3d 267,
271 (W.D.N.Y. 2016)(citation omitted). The problem
with this statute which has been in effect for
approximately fifty years is that it does not reflect the
modern medical practice of pain management and it
fails to take into account the ever-changing medical
standards regarding prescribing practices.
For
instance, medical marijuana clinics have recently been
established to treat those afflicted with chronic pain
even though the federal government classifies
marijuana as a drug with no legitimate medical
purpose. This makes the term “legitimate medical
purpose” inherently vague in the context of pain
management.
Currently, medical doctors who have never had any
criminal record are being swept up in a political push

11
to punish someone for the opioid epidemic that has
plagued this country. These vague terms are being
used by federal prosecutors to round up and prosecute
doctors who were prescribing opioids at a time when
the medical profession was advising doctors that their
prescribing practices were appropriate, legitimate, and
lifesaving. This national roundup is based upon the
number of pills doctors prescribed to patients without
regard to the medical standards at the time the pills
were prescribed. These doctors have had their careers
ruined and have been banished to long prison
sentences based upon a prosecutor’s interpretation of
what a legitimate medical practice entails rather than
what the medical profession believed at the time.
Prosecutors have failed to remember that
pharmaceutical companies touted these drugs as
critical treatment to combat chronic pain, and medical
boards throughout this country echoed this sentiment.
I. This Court has never provided clarity on the
vague term “legitimate medical practice”
encompassed in 21 U.S.C. § 841 and 21 C.F.R.
§ 1306.04 resulting in haphazard application of
these laws and a circuit split. Ultimately, this
vague term has allowed the government to
criminalize a practice of medicine that was
accepted and practiced by doctors in the
medical community.
The Controlled Substances Act, 21 U.S.C. § 841,
states “[e]xcept as authorized by this title, it shall be
unlawful for any person knowingly or intentionally (1) to manufacture, distribute, or dispense, or possess
with intent to manufacture, distribute, or dispense, a

12
controlled substance.” 21 U.S.C. § 841. The statute
provides an exception for medical professionals to
dispense these controlled substances if they are
registered. United States v. Birbragher, 603 F.3d 478
(11th Cir. 2010).
While medical professionals are permitted to
dispense controlled substances, in 1975, this Court
established that a medical professional can be
prosecuted “under 21 U.S.C. § 841 when their activities
fall outside the usual course of professional practice.”
United States v. Moore, 423 U.S. 122, 124 (1975). With
regard to the prosecution of doctors, the statute is read
in conjunction with 21 C.F.R. § 1306.04 which provides
that “[a] prescription for a controlled substance to be
effective must be issued for a legitimate medical
purpose by an individual practitioner acting in the
usual course of his professional practice.” 21 C.F.R.
§ 1306.04. In United States v. Moore, 423 U.S. 122
(1975), this Court never addressed what constituted a
legitimate medical purpose because the Court noted
“[i]n the case of methadone treatment the limits of
approved practice are particularly clear,” the defendant
admitted he was not authorized to conduct a
methadone maintenance clinic and had previously
agreed to abide by “certain medical procedures in
future methadone programs” which he admittedly
failed to follow. Id. at 144-45. As such, what
constituted a “legitimate medical purpose” and “outside
the scope” were never put at issue and thus, never
decided by this Court.
In the context of a pain management medical
practice, 21 U.S.C. § 841 and 21 C.F.R. § 1306.04

13
simply do not clearly define its prohibitions and does
not give “ordinary people fair notice of the conduct it
punishes, or so standardless that it invites arbitrary
enforcement.” Johnson v. United States, 576 U.S. 591,
595 (2015); Grayned v. City of Rockford, 408 U.S. 104,
108 (1972). Due process principles advise that a penal
statute is void for vagueness if it does not clearly define
its prohibitions. Grayned v. City of Rockford, 408 U.S.
104, 108 (1972). The Fifth Amendment provides that
“[n]o person shall ... be deprived of life, liberty, or
property, without due process of law.” Johnson v.
United States, 576 U.S. 591, 595 (2015). United States
Supreme Court cases clearly “establish that the
Government violates this guarantee by taking away
someone’s life, liberty, or property under a criminal law
so vague that it fails to give ordinary people fair notice
of the conduct it punishes, or so standardless that it
invites arbitrary enforcement.”
Id.; Kolender v.
Lawson, 461 U.S. 352, 357 (1983).
The law provides that “a statute which either
forbids or requires the doing of an act in terms so vague
that men of common intelligence must necessarily
guess at its meaning and differ as to its application,
violates the first essential of due process.” Connally v.
Gen. Constr. Co., 269 U.S. 385, 391 (1926). As such, it
is essential that a criminal statute make clear what
conduct is prohibited so that an ordinary citizen can
“conform his or her conduct to the law.” City of Chicago
v. Morales, 527 U.S. 41, 58 (1999). Criminal statutes
must also “establish minimal guidelines to govern law
enforcement.” Smith v. Goguen, 415 U.S. 566, 574
(1974). This Court has held “[n]o one may be required
at peril of life, liberty or property to speculate as to the

14
meaning of penal statutes.” Lanzetta v. New Jersey, 306
U.S. 451, 453 (1939).
This Court has stated “it would certainly be
dangerous if the legislature could set a net large
enough to catch all possible offenders and leave it to
the courts to step inside and say who could be
rightfully detained, and who should be set at large.”
United States v. Reese, 92 U.S. 214, 221 (1875).
Unfortunately, these laws as applied to pain
management medical practices casts such a net.
Moreover, the vagueness of these terms is only
compounded by the Sixth Circuit precedent which
provides that “[t]here are no specific guidelines
concerning what is required to support a conclusion
that an accused acted outside the usual course of
professional practice.” United States v. Volkman, 797
F.3d 377, 388 (6th Cir. 2015). The Sixth Circuit has
explicitly stated that “we have endorsed a broad
approach to determining what conduct falls outside the
accepted bounds of professional practice so as to
constitute a CSA violation, eschewing a preestablished
list of prohibited acts in favor of a case-by-case
approach.” Id. at 386. This acknowledgment by the
Sixth Circuit is an admission that this is a vague
statute. This Court has noted “[v]ague laws invite
arbitrary power…they can invite the exercise of
arbitrary power all the same – by leaving the people in
the dark about what the law demands and allowing
prosecutors and courts to make it up.” Sessions v.
Dimaya, 138 S. Ct. 1204, 1223-24 (2018). It has been
noted that “although Moore affirmed that practitioners
can be prosecuted under Section 841…[the] startling
facts and the limited questions presented to the Court

15
have left lower courts to interpret the appropriate
boundaries for practitioner liability. Understandably,
this has led to uncertainty and a circuit split.” United
States v. Houdersheldt, No. 3:19-00239, 2020 U.S. Dist.
LEXIS 241736, at *17-18 (S.D. W. Va. Dec. 23, 2020).
The First, Seventh and Ninth Circuits have held that
criminal liability only attaches if a “defendant
deliberately acted without a legitimate medical purpose
or outside the bounds of medical practice.” Id. The
Tenth Circuit held that “nothing in the statutory
language at 21 U.S.C. § 841(a)(1), the regulatory
language at 21 C.F.R. § 1306.04, or any case law []
requires the physician to ‘knowingly” act without a
legitimate medical purpose or outside the usual course
of professional practice.” Id. at *19. Simply put, the
application of these laws is a legal mess.
II. The inherent vagueness of the law is
exacerbated by continuing changes in medical
opinion and conflicting laws. What was
deemed appropriate while Petitioner was
practicing medicine, has now been castigated
as illegitimate by the government by virtue of
these inherently vague provisions.
Throughout her time practicing pain management,
the Medical Board of Ohio saw no issue with Ms.
Temponeras’ prescription practices.
Defendant’s
Sentencing Memorandum, RE 106, Page ID # 721.
“The Medical Board is responsible for, among other
tasks, conducting random patient and record reviews.
From 2005 through 2011, Ms. Temponeras and her
clinic received positive feedback from the Medical
Board.” Id. (emphasis added). “Not once did the

16
Medical Board indicate that she should lower the
amount of controlled substances she prescribed or alter
her treatment protocols.” Id. “The Medical Board even
cleared Ms. Temponeras after several complaints were
made about her clinic, telling her each time that she
was operating it appropriately and in full compliance
with the law.” Id. (emphasis added). In fact, “[o]ne
year before her clinic was shut down, Ms. Temponeras
also applied for a three-year DEA license. The DEA
inspected her practice, indicated there were no
problems, and granted her the license.” Id.
At the sentencing hearing, the government took the
positive feedback Ms. Temponeras received from the
Medical Board and touted it as no excuse for Ms.
Temponeras’ prescription practices. Instead, the
government stated that the Medical Board admitted
under oath that they failed in their duties and used
this to sidestep the fact that the Medical Board at the
time she was practicing found Ms. Temponeras’
prescribing practices legitimate and therefore lawful.
Sentencing Hearing Transcript, RE 107, Page ID # 780781.
The government’s argument that the Ohio Medical
Board failed Ms. Temponeras highlights the inherent
vagueness of the laws at issue. These amorphous
provisions are now being used to prosecute doctors for
a change in medical and public opinion regarding the
prescription of opioids. What the Medical Board
deemed appropriate while Ms. Temponeras was
practicing, has now been castigated as inappropriate.
Ms. Temponeras could have no knowledge at the time
she was practicing medicine that the legitimacy of her

17
practice would be retroactively deemed illegitimate.
The danger of this amorphous statute is that “[a] vague
law impermissibly delegates basic policy matters to
policemen, judges, and juries for resolution on an ad
hoc and subjective basis.” Sessions v. Dimaya, 138
S. Ct. 1204, 1228 (2018)(citation omitted).
The ambiguity as to what falls outside the scope of
a legitimate medical practice becomes evident in the
PSR and the sentencing hearing. The PSR notes that
Ms. Temponeras “participated in certain courses and
obtained certifications in pain management.” PSR,
p. 5, ¶ 14. The PSR notes “[l]ike many other doctors,
she was being told by pharmaceutical companies that
Oxycontin and other similar medications were not
addictive. She was encouraged by pharmaceutical
representatives to prescribe as much medication as it
took to address a patient’s pain.” PSR, pp. 5-6, ¶ 14.
The PSR references the medical term “titration”
commenting that “doctors are supposed to follow
titration which means the patients have optimal pain
relief with minimal side effects.” PSR, p. 7, ¶ 21.
After recognizing that legitimate medical practice
requires a doctor to prescribe dosages that give
patients “optimum pain relief with minimum side
effects,” the PSR contains assumptions which
completely ignore this medical standard. The PSR
required the probation officer to determine what pills
were prescribed outside of a legitimate medical
practice. The inherent ambiguity in the statute
resulted in an absurd calculation relied upon in Ms.
Temponeras’ sentencing. In the PSR, the probation
officer notes that only “6 to 8%” of prescriptions were

18
for non-controlled substances but contains no
information if this percentage is uncommon for a pain
management medical practice. PSR, p. 10, ¶ 37. The
PSR then utilized the records of 26 patients to make
assumptions at to what prescriptions were deemed
inappropriate. In calculating the drug totals, the PSR
explicitly states “[i]f it is assumed that the amount of
Oxycodone and Oxycontin prescriptions given to these
patients … were improper and outside appropriate
medical practice, the total would be ….” PSR, p. 11,
¶ 40. Given the inherently vague provisions of the
statutes, the PSR assumed every pill dispensed was
illegitimate.
Ms. Temponeras’ clinic was not a general doctor’s
office. It was solely for the treatment of people in
chronic pain. Ms. Temponeras’ pain management clinic
“was treating some of the sickest patients in the area.
Those patients were typically referred to her by other
physicians or were her former patients.” Sentencing
Hearing Transcript, RE 107, Page ID #798.
Of course, Ms. Temponeras would distribute more
pills than the average family practitioner. This is
because pain management focuses on patients who
suffer from debilitating, chronic pain. Unfortunately,
there are people who suffer from unforeseen car
accidents, sporting injuries, military combat injuries
and freak occurrences that lead to chronic pain.
Additionally, there are other people who develop
chronic conditions simply because this is the cards that
life has given them or perhaps, they practice an
occupation that is particularly taxing on the body. For
instance, it is not uncommon for a person to suffer from

19
a spinal injury in their early thirties. In another
instance, a coal miner’s body may be afflicted with
more chronic pain ailments than the average person.
Pain management practices were started to attend to
the needs of these particular people. These laws,
drafted so many decades ago, are simply void for
vagueness in their application to a pain management
practice – a medical practice which often requires the
prescription of pain alleviating drugs.
At the time Moore was decided in 1975, the medical
community and the public at large believed that opioids
were inherently dangerous. This widely held belief
took a drastic swing in the 1990s. During the 1990s,
there was a tremendous change in public opinion as
well as medical opinion regarding the efficacy and
legitimacy of opioid prescriptions. Opinions began to
shift from the belief that prescription of opioids caused
addiction to the opinion that the underprescription of
opioids was a contributing factor to the illicit drug
epidemic.3 The rationale became that people were
seeking illicit narcotics because doctors were not
adequately addressing patients’ pain.4 At the time,
articles were published linking the inability to obtain
prescriptions for intractable pain as a reason why

3

See, Science Direct, Clinical Solutions to Chronic Pain and the
Opiate Epidemic,
https://www.sciencedirect.com/science/article/pii/S009174351830
3098?via%3Dihub
4

Id.

20
individuals were seeking illicit drugs.5 A change in
medical and public opinion took place.
The medical community was urged to treat pain as
a “Fifth Vital Sign” and doctors were being admonished
for not adequately treating patients’ pain.6 The concept
of pseudoaddiction became accepted by the medical
community and was advanced by independent medical
societies.7 Pseudoaddiction was the belief that patients
with pain will exhibit drug seeking behaviors if their
pain is not adequately treated by their doctor.8 Doctors
were advised that addiction was rare in patients under
medical supervision and drug seeking behavior was
simply a doctor failing to adequately prescribe pain
medication.9 Medical journals detailed that pain and
anxiety were inextricably linked and doctors should
treat both issues concurrently.10 Doctors were advised
that opioids, such as Oxycontin, and anxiety
medication, such as Xanax, should be used together to
effectively treat pain.
5

Id.

6

Id.

7

Id.

8

Id.

9

Id.

10

See, Practical Pain Management, Benzodiazepines and Opioids:
Only Trained Pain Practitioners Should Prescribe,
https://www.practicalpainmanagement.com/treatments/pharmac
ological/benzodiazepines-opioids-only-trained-pain-practitionersshould-prescribe

21
This change in medical consensus led to the passage
of Intractable Pain Laws. California was the first state
to pass intractable pain laws with the reasoning that
doctors were not adequately treating patients’ pain
because doctors feared criminal prosecution if they
prescribed opioids.11 Other states began to follow
California’s lead and began passing their own
intractable pain laws.12 These laws were intended to
allow doctors to prescribe opioids in amounts that were
previously thought to be improper with the new
medical guidance that underprescribing was the real
issue and not overprescribing.13 The State of Ohio’s
intractable pain law, pursuant to which Ms.
Temponeras practiced, explicitly allowed for the use of
prescription drugs “on a protracted basis or when
managing intractable pain with prescription drugs in
amounts or combinations that may not be appropriate
when treating other medical conditions.” App.36; OAC
Ann. 4731-21-02 (2005). Oxycontin was touted as a
safe and effective opioid. At the time, it was believed
that the slow-release nature of the medication made it

11
See, Practical Pain Management, State Pain Laws: A Case for
Intractable Pain Centers Part III,
https://www.practicalpainmanagement.com/resources/ethics/statepain-laws-case-intractable-pain-centers-part-iii
12

Id.

13

Id.

22
a safe medication for treating intractable pain.14 The
FDA approved dosing instructions on these opioids
clearly set forth doctors should increase dosages as
tolerance for a drug increases. Additionally, the
American Pain Society and other industry leaders
promoted the concepts of pain as the “5th Vital Sign”
and pseudoaddiction. Medical journals propounded
these concepts as well. Medical societies also hosted
medical education seminars and issued treatment
guidelines throughout the late 1990s until mid-2010s.
Unbeknownst to doctors at the time, was that the
medical boards and the medical community at large
were defrauded by the pharmaceutical companies.
App.52-53, ¶ 88-89. Specifically, the Attorney General
of Ohio set forth that pharmaceutical companies
engaged in a “deceptive marketing campaign [which]
deprived Ohio patients and their doctors of the ability
to make informed medical decisions and, instead,
caused important, sometimes life-or-death decisions to
be made based not on science, but on hype.” App.50,
¶14. The Attorney General of Ohio set forth that these
pharmaceutical companies “controlled the distribution
of these messages in scientific publications, treatment
guidelines, CMEs, and medical conferences and
seminars.” App.51, ¶ 45. The Attorney General of
Ohio also set forth that the American Academy of Pain
Management and the American Pain Society issued
guidelines that were a “particularly effective channel of

14

See, Cato Institute, Overdosing on Regulation - How the
Government Caused the Opioid Epidemic,
https://www.cato.org/policy-analysis/overdosing-regulation-howgovernment-caused-opioid-epidemic

23
deception and have influenced not only treating
physicians, but also the body of scientific evidence on
opioids; the Guidelines have been cited 732 times in
academic literature, were disseminated in Ohio during
the relevant time period, are still available online, and
were reprinted in the Journal of Pain.” App.51-52,
¶ 84. In the early 2010s, newspaper articles began to
expose that pharmaceutical companies had engaged in
a pervasive campaign to promote prescription of their
opioid products. Doctors and patients relied on this
information. In the mid-2010s, this new information
caused the medical community’s attitude to shift again.
This societal pivot away from prescription opioids
was palpable. Ohio’s intractable pain law which
provided that Ms. Temponeras could prescribe opioids
“on a protracted basis or when managing intractable
pain with prescription drugs in amounts or
combinations that may not be appropriate when
treating other medical conditions” was eventually
repealed in 2018 – well after the indictment of Ms.
Temponeras. App.36; OAC Ann. 4731-21-02 (2005).
Before the statute’s repeal, however, this provision of
the intractable pain law remained in the statute until
it was removed in 2017 – long after Ms. Temponeras
ceased practicing medicine. App.42; OAC Ann. 473121-02 (2017). A National Law Review article noted
that “[o]n December 23, 2018, new State Medical Board
of Ohio regulations became effective which marked
another change in the legal standards governing
provider use of opiates for treatment of pain. Notably,
these new regulations also serve to rescind and replace
Ohio’s previously long-standing ‘Chronic Pain Rules,’
also known as the ‘Intractable Pain Rules,’ which were

24
first adopted as a component of the earlier ‘5th Vital
Sign’ era which preceded the current opioid epidemic.
In this respect, these new rules eliminate the last
remaining regulatory vestige of that prior era.”15
The climate at the time Ms. Temponeras opened her
pain management medical practice is akin to the
medical marijuana industry today. The current opinion
about marijuana has changed significantly over time.
The pendulum of opinion has swayed significantly from
the 1980s classroom lectures that you should “just say
no” because marijuana is a “gateway drug” with
absolutely no legitimate medical purpose. Today,
medical marijuana is considered a legitimate medical
industry by most state governments and has been
touted in the medical community as an effective
remedy for almost every ailment including chronic
pain, anxiety, autoimmune disorders and infectious
diseases.16
Incredibly, despite state laws allowing for the
distribution of medical marijuana, marijuana is still
classified as a Schedule I drug defined as having “no
legitimate medical purpose” under federal law. United
States v. Green, 222 F. Supp. 3d 267, 271-72 (W.D.N.Y.

15

See, National Law Review, Standards for Use of Opiates in
Treatment of Pain Changes in Ohio,
https://www.natlawreview.com/article/standards-use-opiatestreatment-pain-changes-ohio

16

See, Ohio Marijuana Card, Understanding Pain that is Chronic,
Severe or Intractable,
https://www.ohiomarijuanacard.com/post/understanding-pain-thatis-chronic-severe-or-intractable

25
2016). Ten years from now, doctors and clinicians who
are now relying on state’s medical marijuana laws may
likely be subjected to the same criminal prosecutions as
pain management doctors now face. Indeed, the
government can utilize even stronger arguments
against the medical marijuana industry citing that the
federal law does not recognize any legitimate medical
purpose for the dispensation of marijuana. Unlike
medical marijuana, opioids have always been classified
as having a legitimate medical use as is noted by its
classification as a Schedule II drug.
To avoid engaging in a criminal act, a person must
be aware of the prohibited conduct as defined by the
law. The Sixth Circuit readily acknowledges that its
approach to these laws is not to define any proscribed
conduct. As such, a medical practitioner does not have
any notice of what conduct is considered outside the
legitimate bounds of practice. This is not a standard,
but rather a hit or miss proposition. Ultimately, a case
is not prosecuted on whether a criminal law is violated,
but rather if a doctor is within the crosshairs of a
federal prosecutor. These are inherently vague laws
which give prosecutors way too much power in
determining whether a crime is committed. Without
specific guidelines, a prosecutor determines whether a
doctor has engaged in criminal conduct inviting the
arbitrary exercise of power which is exactly what the
law prohibits. These vague laws are inherently
dangerous and again cede too much power to an
unelected federal prosecutor. For instance, a patient
may be borderline diabetic and seek the advice of
several doctors to treat this ailment. Doctor A may
immediately argue that aggressive medication is

26
needed, but in contrast Doctor B may advocate for a
change in diet and a daily exercise routine. Do we now
live in an environment where we criminalize an
alternative form of treatment?
Chronic pain has been treated by doctors in
accordance with the standards set forth by the medical
community. Medical standards fluctuate throughout
time based upon new studies and discoveries. Often,
there arises a medical debate as to appropriate medical
standards and practices.17 Medical doctors practice in
this atmosphere and must make professional
judgments as to courses of treatment based upon the
information available to them. Doctors should not be
prosecuted under amorphous legal standards that are
impossible to clearly define and ultimately impossible
to defend against. The government knows the actual
culprit here. Many pharmaceutical companies deceived
the public and the medical community regarding their
product. As such, these vague statutes are providing a
platform to pursue and punish the wrong people.
Doctors are placed in the unenviable position of facing
decades in prison and/or a ten-week trial which is
financially crippling. Let us be frank, this is why most
doctors prosecuted under these statutes take a plea of
guilty. Unless this Court intervenes, the government
can arbitrarily prosecute doctors even though these
medical professionals followed the standards set forth

17

These medical differences of opinion can be readily seen in the
open debates as to the use of hydroxychloroquine for the treatment
of Covid-19 just this past year. Numerous doctors said the
treatment could save lives. Others deemed the usage of the drug
dangerous.

27
by the medical community and pursuant to the
direction of pharmaceutical companies.
This Court’s intervention is also needed whereby
there is an existing circuit split as to how to apply
these very vague, dangerous laws. Currently, this is
not a legal standard but a non-legal crapshoot. These
vague laws may soon ensnare the purveyors of medical
marijuana dispensaries which may face federal
criminal prosecution because the winds of public and/or
medical opinion have changed regarding the use of
medical marijuana. The passage of time has made the
terms “legitimate medical practice” and “outside the
scope” too amorphous and they are clearly vague. This
Court’s intervention here is desperately needed.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
Alexandra C. Siskopoulos
Counsel of Record
Siskopoulos Law Firm, LLP
33 West 19th Street, 4th Floor
New York, New York 10011
(646) 942-1798
acs@siskolegal.com
Counsel for Petitioner
March 12, 2021

